v) 1 _ K ^

. «=n

No.

Supreme Court ot tljc Kntteb Stated

Supreme Court, U.S.
FILED

JUl 1 9 2821
OFFICE OF THE CLERK

&

I

■c*-

;

EDWIN ARTIS PETTAWAY,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI

Edwin Artis Pettaway
Petitioner
36222-001
P.O. Box 9000
Forrest City, AR 72336
$

i

(

QUESTIONS PRESENTED
Petitioner Edwin Pettaway was convicted of violation of 21 U.S.C. § 841(a)(1) and 21
U.S.C. § 841(b)(1)(B) (Possession with Intent to Distribute 28 grants or more of a mixture and
substance containing a detectable amount of cocaine base on or about the 15th day of November,
■*.

2017) (Count 1); 18 U.S.C. § 924(c)(lXA) (did knowingly possess a firearm, that is, a SCCY
9mm pistol, in furtherance of a drug trafficking crime on or about the 15th day of November,
2017) (Count 2). These convictions were predicated on evidence seized during the execution of a
search warrant on a residence in Birmingham, AL. The probable cause for the search was in turn
predicated on a ‘tip’ by a confidential informant (“Cl”). At the time of the execution of the
warrant, there were 13 people in the residence but, based on the secret information provided by
the Cl and misidentification of a person coming out of a room in which drugs and a gun were
found, the police chose to charge Mr. Pettaway. Prior to and as part of the motion to suppress
filed by Mr. Pettaway, counsel requested the name of the Cl so he/she could be cross examined.
These requests were denied as were further requests made prior to and during trial. Mr. Pettaway
was convicted by the jury and sentenced to 174 months incarceration. He had a Criminal History
score under the Sentencing Guidelines of “0”.

10

Was Mr. Pettaway denied his constitutional right to present a complete defense?

20

Where multiple additional errors affected petitioner’s conviction and/or sentence

in the courts below, should this Court exercise it’s supervisory power to vacate his conviction
and sentence?

i

PARTIES TO THE PROCEEDINGS
IN THE COURT BELOW
The caption of the case in this Court contains the names of all parties to the proceedings
in the United States Court of Appeals for the Eleventh Circuit.
More specifically, the Petitioner Edwin Artis Pettaway and the Respondent United States
of America are the only parties. Neither party is a company, corporation, or subsidiary of any
company or corporation.

.6

s

ii

TABLE OF CONTENTS
Paggl
Questions Presented

i

List of Parties to the Proceedings
in the Courts Below........

ii

Table of Contents

iii

Table ofAuthorities.

v

Petition for a Writ of Certiorari

1

Opinions Below

1

Statement of Jurisdiction

2

Constitutional Provisions,
Treaties, Statutes, Rules,
and Regulations Involved

3

Statement of the Case .

14

Reasons for Granting the Writ

18

1.)

1A.)

IB.)
j

THIS COURT SHOULD GRANT MR. PETTAWAY’S PETITION
FOR WRIT OF CERTIORARI BECAUSE THE COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT HAS SO FAR
DEPARTED FROM THE ACCEPTED AND USUAL COURSE OF
JUDICIAL PROCEEDINGS AS TO CALL FOR AN EXERCISE OF
THIS COURT’S POWER OF SUPERVISION.......................................

18

Mr. Pettaway Was Denied His Right To Present Evidence Of Mistake
And Bias By The Cooperating Witness And, Therefore, Denied His
Constitutional Right Tb Present A Complete Defense..............................

19

Multiple Errors In The Courts Below Mandate That Mr. Pettaway’s
Conviction And/Or Sentence Be Vacated...............................................

23

Conclusion

25

Appendix

26

USCA Opinion Dated 1-14-21

A
iii

USDC Judgment & Commitment Order Entered 1-15-20—

B

USCA Denial of Rehearing Dated 3-24-21

C

USDC Order Denying Motion to Suppress Entered 3-20-19

D

USDC Order Denying Disclosure of Name of Cl Entered 3-7-19

E

j

iv

TABLE OF AUTHORITIES
Page:

Cases
United States v. Hurn,
368 F.3d 1359, 1363, 95 Fed Appx. 1359 (11th Cm 2004)

19

Benanti v. United States,
18, 24

355 US. 96 (1957)
Chambers v. Mississippi,
410 U.S, 284, 302, 35 L. Ed. 2d 297,
93 S. Ct. 1038(1973)

19

Crane v. Kentucky,
476 US. 683, 690, 106 S. Ct, 2142,
90 L. Ed. 2d 636 (1986)

19, 25

Elkins v, United States,
364 U.S. 206 (I960)

18, 24

GACAv, United States,
411 US. 618 (1973)

18, 24

Holmes v. South Carolina,
547 US. 319, 330-31, 126 S. Ct. 1727, 1734-35,
164 L. Ed. 2d 503 (2006)

19

Lawrence v, Chater,
516 US. 163, 167-68, 133 L. Ed 2d 545,
116 S. Ct. 604(1996)

25

v

McNabb v. United States,
18, 19, 24

318 U.S. 332 (1943)
Reav. United States,
350 U.S. 214 (1956)

18, 24

United States v. Almonte,
956 F.2d 27, 30 (2nd Cir. 1992)

19

United States v. Behrens,
375 U.S. 162 (1963)........................................................................

18, 24

United States v. Berry,
290 Fed. Appx. 784; 2008 US. App. LEXIS 17280 (6th Cir. 2008)

20

United States v. Blum,
62 F.3d 63; 1995 U.S. App. LEXIS 20605 **11-12 (2nd Cir. 1995)

19

United States v. Hudson,
970 F.2d 948; 1992 U.S. App. LEXIS 16608 (1st Cir. 1992).

19

United States v. Jacobs,
429 U.S. 909 (1976)

18, 24

United States v. Jimenez,
205 Fed. Appx. 656; 2006 U.S. App. LEXIS 27952 (ltfh Cir. 2006)

21

United States v. Manning,
618 F.2d 45; 1980 U.S. App. LEXIS 18474 (8th Cir. 1980)

20

United States v. Marshall,
259 Fed. Appx. 855; 2008 U.S. App. LEXIS 153 (7th Cir. 2008)

vi

20

United States v. Molina,
407 F. 3d 511; 2005 U.S. App. LEXIS 9041 (Is' Cir. 2005)

19

United States v. Nelson,
277 E3d 164; 2002 U.S. App. LEXIS 213 (2nd Cir. 2002).

20

United States v. Pettaway,
2021 U.S. App. LEXIS 8623 (11th Cir. 3-24-21).............

17, 23

United States v. Pettaway,
842 Fed. Appx. 406 * |
2021 U.S. App. LEXIS 1005 ** (if Cir. 1-14-21).

17, 23

United States v. Reyes-Rios,
280 Fed. Appx. 376; 2008 U.S. App. LEXIS 11923 (5th Cir. 2008).

20

United States v. Sherman,
551 F.3d 45; 2008 U.S. App. LEXIS 25806 (f Cm 2008).....

20

United States v. Woodard,
531 F.3d 1352; 2008 U.S. App. LEXIS 13719 (if Cir. 2008).

21

Statutes
18 U.S.C. § 924(c)

12

18 U.S.C. § 924(c)(1)(A)

passim

21 U.S.C. §841

3, 12

21 U.S.C. §84.1(a)(1).

passim

28 U.S.C. §1254(1)

2

Other Authorities
U.S.C.A. Fifth Amendment

3, 19
vii

3

U.S.C.A. Fourth Amendment

3, 19

U.S.C.A. Sixth Amendment.
Rules

18

Supreme Court Rule 10

viii

PETITION FOR A WRIT OF CERTIORARI
Edwin Artis Pettaway, the Petitioner herein, respectfully prays that a writ of certiorari
issue to review the judgment of the United States Court of Appeals for the Eleventh Circuit,
entered in the above entitled case on 1-14-21.
OPINIONS BELOW
The 1-14-21 opinion of the Court of Appeals for the Eleventh Circuit, whose judgment is
herein sought to be reviewed, is an unpublished decision reported at 842 Fed. Appx. 406 * | 2021
U.S. App. LEXIS 1005 ** and is reprinted in the separate Appendix A to this Petition.
A petition for rehearing was timely filed and was denied by the Court of Appeals for the
Eleventh Circuit on 3-24-21. This opinion is an unpublished decision reported at 2021 U.S. App.
LEXIS 8623 * and is reprinted in the separate Appendix C to this Petition.
The prior opinion and judgment (Judgment & Commitment Order) of the United States
District Court for the Northern District of Alabama, was entered on 1-15-20, is an unpublished
decision, and is reprinted in the separate Appendix B to this Petition.
The prior opinion and judgment of the United States District Court for the Northern
District of Alabama Denying Mr. Pettaway’s Motion to Suppress was entered on 3-20-19, is an
unpublished decision handed down from the bench and is reprinted in the separate Appendix D
to this Petition.
The prior opinion and judgment of the United States District Court for the Northern
District of Alabama denying disclosure of the name of the confidential informant Cl was entered
on 3-7-19, is an unpublished decision, and is reprinted in the separate Appendix E to this
Petition.

1

STATEMENT OF JURISDICTION
The judgment of the Court of Appeals was entered on 1-14-21. A petition for rehearing
was timely filed and was denied by the Court of Appeals for the Eleventh Circuit on 3-24-21.
The jurisdiction of this Court is invoked pursuant to 28 U.S.C. § 1254(1).

2

CONSTITUTIONAL PROVISIONS. TREATIES. STATUTES.
RULES AND REGULATIONS INVOLVED
The Fourth Amendment to the Constitution of the United States provides as follows:
The right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no Warrants
shall issue, but upon probable cause, supported by Oath or affirmation, and
particularly describing the place to be searched, and the persons or things to be
seized. Id.
The Fifth Amendment to the Constitution of the United States provides in relevant part:
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury... nor shall any person be
subject for the same offence to be twice put in jeopardy of life or limb; nor shall
be compelled in any criminal case to be a witness against himself nor be deprived
of life, liberty, or property, without due process of law ...Id.
The Sixth Amendment to the Constitution of the United States provides:
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime shall
have been committed, which district shall have been previously ascertained by
law, and to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the Assistance of Counsel for his
defense. Id.
21 U.S.C. § 841 provides in relevant part:
(a) Unlawful acts. Except as authorized by this title, it shall be unlawful
for any person knowingly or intentionally—
(1) to manufacture, distribute, or dispense, or possess with intent to
manufacture, distribute, or dispense, a controlled substance; or
(2) to create, distribute, or dispense, or possess with intent to distribute
or dispense, a counterfeit substance.
(b) Penalties. Except as otherwise provided in section 409, 418, 419, or
420 [21 USCS § 849, 859, 860, or 861], any person who violates subsection (a) of
this section shall be sentenced as follows:
(1) (A) In the case of a violation of subsection (a) of this section
involving—
(i) 1 kilogram or more of a mixture or substance containing a
detectable amount of heroin;
3

(ii) 5 kilograms or more of a mixture or substance containing a
detectable amount of—
(I) coca leaves, except coca leaves and extracts of coca leaves from
which cocaine, ecgonine, and derivatives of ecgonine or their salts have been
removed;
(II) cocaine, its salts, optical and geometric isomers, and salts of
isomers;
(III) ecgonine, its derivatives, their salts, isomers, and salts of
isomers; or
(IV) any compound, mixture, or preparation which contains any
quantity of any of the substances referred to in subclauses (I) through (III);
(iii) 280 grams or more of a mixture or substance described in clause
(ii) which contains cocaine base;
(iv) 100 grams or more of phencyclidine (PCP) or 1 kilogram or
more of a mixture or substance containing a detectable amount of phencyclidine
(PCP);
(v) 10 grams or more of a mixture or substance containing a
detectable amount of lysergic acid diethylamide (LSD);
(vi) 400 grams or more of a mixture or substance containing a
detectable amount ofN-phenyl-N- [l-(2-phenylethyl)-4-piperidinyl] propanamide
or 100 grams or more of a mixture or substance containing a detectable amount of
any analogue ofN-phenyl-N- [l-(2-phenylethyl)-4-piperidinyl] propanamide;
(vii) 1000 kilograms or more of a mixture or substance containing a
detectable amount of marihuana, or 1,000 or more marihuana plants regardless of
weight; or
(viii) 50 grams or more of methamphetamine, its salts, isomers, and
salts of its isomers or 500 grams or more of a mixture or substance containing a
detectable amount of methamphetamine, its salts, isomers, or salts of its isomers;
such person shall be sentenced to a term of imprisonment which may
not be less than 10 years or more than life and if death or serious bodily injury
results from the use of such substance shall be not less than 20 years or more than
life, a fine not to exceed the greater of that authorized in accordance with the
provisions of title 18, United States Code, or $ 10,000,000 if the defendant is an
individual or $ 50,000,000 if the defendant is other than an individual, or both. If
any person commits such a violation after a prior conviction for a felony drug
offense has become final, such person shall be sentenced to a term of
imprisonment which may not be less than 20 years and not more than life
imprisonment and if death or serious bodily injury results from the use of such
substance shall be sentenced to life imprisonment, a fine not to exceed the greater
of twice that authorized in accordance with the provisions of title 18, United
States Code, or $ 20,000,000 if the defendant is an individual or $ 75,000,000 if
the defendant is other than an individual, or both. If any person commits a
violation of this subparagraph or of section 409, 418, 419, or 420 [21 USCS §
849, 859, 860, or 861] after two or more prior convictions for a felony drug
offense have become final, such person shall be sentenced to a mandatory term of
life imprisonment without release and fined in accordance with the preceding
4

sentence. Notwithstanding section 3583 of title 18, any sentence under this
subparagraph shall, in the absence of such a prior conviction, impose a term of
supervised release of at least 5 years in addition to such term of imprisonment and
shall, if there was such a prior conviction, impose a term of supervised release of
at least 10 years in addition to such term of imprisonment. Notwithstanding any
other provision of law, the court shall not place on probation or suspend the
sentence of any person sentenced under this subparagraph. No person sentenced
under this subparagraph shall be eligible for parole during the term of
imprisonment imposed therein.
(B) In the case of a violation of subsection (a) of this section­
involving—
(i) 100 grams or more of a mixture or substance containing a
detectable amount of heroin;
(ii) 500 grams or more of a mixture or substance containing a
detectable amount of—
(I) coca leaves, except coca leaves and extracts of coca leaves from
which cocaine, ecgonine, and derivatives of ecgonine or their salts have been
removed;
(II) cocaine, its salts, optical and geometric isomers, and salts of
isomers;
(III) ecgonine, its derivatives, their salts, isomers, and salts of
isomers; or
(IV) any compound, mixture, or preparation which contains any
quantity of any of the substances referred to in subclauses (I) through (III);
(iii) 28 grams or more of a mixture or substance described in clause
(ii) which contains cocaine base;
(iv) 10 grams or more of phencyclidine (PCP) or 100 grams or more
of a mixture or substance containing a detectable amount of phencyclidine (PCP);
(v) 1 gram or more of a mixture or substance containing a detectable
amount of lysergic acid diethylamide (LSD);
(vi) 40 grams or more of a mixture or substance containing a
detectable amount ofN-phenyl-N- [l-(2-phenylethyl)-4-piperidinyl] propanamide
or 10 grams or more of a mixture or substance containing a detectable amount of
any analogue ofN-phenyl-N- [l-(2-phenylethyl)-4-piperidinyl] propanamide;
(vii) 100 kilograms or more of a mixture or substance containing a
detectable amount of marihuana, or 100 or more marihuana plants regardless of
weight; or
(viii) 5 grams or more of methamphetamine, its salts, isomers, and
salts of its isomers or 50 grams or more of a mixture or substance containing a
detectable amount of methamphetamine, its salts, isomers, or salts of its isomers;
such person shall be sentenced to a term of imprisonment which may
not be less than 5 years and not more than 40 years and if death or serious bodily
injury results from the use of such substance shall be not less than 20 years or
more than life, a fine not to exceed the greater of that authorized in accordance
with the provisions of title 18, United States Code, or $ 5,000,000 if the defendant
is an individual or $ 25,000,000 if the defendant is other than an individual, or
5

both. If any person commits such a violation after a prior conviction for a felony
drug offense has become final, such person shall be sentenced to a term of
imprisonment which may not be less than 10 years and not more than life
imprisonment and if death or serious bodily injury results from the use of such
substance shall be sentenced to life imprisonment, a fine not to exceed the greater
of twice that authorized in accordance with the provisions of title 18, United
States Code, or $ 8,000,000 if the defendant is an individual or $ 50,000,000 if the
defendant is other than an individual, or both. Notwithstanding section 3583 of
title 18, any sentence imposed under this subparagraph shall, in the absence of
such a prior conviction, include a term of supervised release of at least 4 years in
addition to such term of imprisonment and shall, if there was such a prior
conviction, include a term of supervised release of at least 8 years in addition to
such term of imprisonment. Notwithstanding any other provision of law, the court
shall not place on probation or suspend the sentence of any person sentenced
under this subparagraph. No person sentenced under this subparagraph shall be
eligible for parole during the term of imprisonment imposed therein.
(C) In the case of a controlled substance in schedule I or II, gamma
hydroxybutyric acid (including when scheduled as an approved drug product for
purposes of section 3(a)(1)(B) of the Hillory J. Farias and Samantha Reid DateRape Drug Prohibition Act of 1999 [21 USCS § 812 note]), or 1 gram of
flunitrazepam, except as provided in subparagraphs (A), (B), and (D), such person
shall be sentenced to a term of imprisonment of not more than 20 years and if
death or serious bodily injury results from the use of such substance shall be
sentenced to a term of imprisonment of not less than twenty years or more than
life, a fine not to exceed the greater of that authorized in accordance with the
provisions of title 18, United States Code, or $ 1,000,000 if the defendant is an
individual or $ 5,000,000 if the defendant is other than an individual, or both. If
any person commits such a violation after a prior conviction for a felony drug
offense has become final, such person shall be sentenced to a term of
imprisonment of not more than 30 years and if death or serious bodily injury
results from the use of such substance shall be sentenced to life imprisonment, a
fine not to exceed the greater of twice that authorized in accordance with the
provisions of title 18, United States Code, or $ 2,000,000 if the defendant is an
individual or $ 10,000,000 if the defendant is other than an individual, or both.
Notwithstanding section 3583 of title 18, any sentence imposing a term of
imprisonment under this paragraph shall, in the absence of such a prior
conviction, impose a term of supervised release of at least 3 years in addition to
such term of imprisonment and shall, if there was such a prior conviction, impose
a term of supervised release of at least 6 years in addition to such term of
imprisonment. Notwithstanding any other provision of law, the court shall not
place on probation or suspend the sentence of any person sentenced under the
provisions of this subparagraph which provide for a mandatory term of
imprisonment if death or serious bodily injury results, nor shall a person so
sentenced be eligible for parole during the term of such a sentence.
(D) In the case of less than 50 kilograms of marihuana, except in the
case of 50 or more marihuana plants regardless of weight, 10 kilograms of
6

hashish, or one kilogram of hashish oil, such person shall, except as provided in
paragraphs (4) and (5) of this subsection, be sentenced to a term of imprisonment
of not more than 5 years, a fine not to exceed the greater of that authorized in
accordance with the provisions of title 18, United States Code, or S 250,000 if the
defendant is an individual or $ 1,000,000 if the defendant is other than an
individual, or both. If any person commits such a violation after a prior conviction
for a felony drug offense has become final, such person shall be sentenced to a
term of imprisonment of not more than 10 years, a fine not to exceed the greater
of twice that authorized in accordance with the provisions of title 18, United
States Code, or $ 500,000 if the defendant is an individual or $ 2,000,000 if the
defendant is other than an individual, or both. Notwithstanding section 3583 of
title 18, any sentence imposing a term of imprisonment under this paragraph shall,
in the absence of such a prior conviction, impose a term of supervised release of
at least 2 years in addition to such term of imprisonment and shall, if there was
such a prior conviction, impose a special parole term of at least 4 years in addition
to such term of imprisonment.
(E) (i) Except as provided in subparagraphs (C) and (D), in the case of
any controlled substance in schedule 111, such person shall be sentenced to a term
of imprisonment of not more than 10 years and if death or serious bodily injury
results from the use of such substance shall be sentenced to a term of
imprisonment of not more than 15 years, a fine not to exceed the greater of that
authorized in accordance with the provisions of title 18, United States Code, or $
500,000 if the defendant is an individual or $ 2,500,000 if the defendant is other
than an individual, or both.
(ii) If any person commits such a violation after a prior conviction
for a felony drug offense has become final, such person shall be sentenced to a
term of imprisonment of not more than 20 years and if death or serious bodily
injury results from the use of such substance shall be sentenced to a term of
imprisonment of not more than 30 years, a fine not to exceed the greater of twice
that authorized in accordance with the provisions of title 18, United States Code,
or $ 1,000,000 if the defendant is an individual or $ 5,000,000 if the defendant is
other than an individual, or both.
(iii) Any sentence imposing a term of imprisonment under this
subparagraph shall, in the absence of such a prior conviction, impose a term of
supervised release of at least 2 years in addition to such term of imprisonment and
shall, if there was such a prior conviction, impose a term of supervised release of
at least 4 years in addition to such term of imprisonment.
(2) In the case of a controlled substance in schedule IV, such person
shall be sentenced to a term of imprisonment of not more than 5 years, a fine not
to exceed the greater of that authorized in accordance with the provisions of title
18, United States Code, or $ 250,000 if the defendant is an individual or $
1,000,000 if the defendant is other than an individual, or both. If any person
commits such a violation after a prior conviction for a felony drug offense has
become final, such person shall be sentenced to a term of imprisonment of not
more than 10 years, a fine not to exceed the greater of twice that authorized in
accordance with the provisions of title 18, United States Code, or $ 500,000 if the
7

defendant is an individual or $ 2,000,000 if the defendant is other than an
individual, or both. Any sentence imposing a term of imprisonment under this
paragraph shall, in the absence of such a prior conviction, impose a term of
supervised release of at least one year in addition to such term of imprisonment
and shall, if there was such a prior conviction, impose a special parole term of at
least 2 years in addition to such term of imprisonment.
(3) In the case of a controlled substance in schedule V, such person shall
be sentenced to a term of imprisonment of not more than one year, a fine not to
exceed the greater of that authorized in accordance with the provisions of title 18,
United States Code, or $ 100,000 if the defendant is an individual or $ 250,000 if
the defendant is other than an individual, or both. If any person commits such a
violation after a prior conviction for a felony drug offense has become final, such
person shall be sentenced to a term of imprisonment of not more than 4 years, a
fine not to exceed the greater of twice that authorized in accordance with the
provisions of title 18, United States Code, or $ 200,000 if the defendant is an
individual or $ 500,000 if the defendant is other than an individual, or both. Any
sentence imposing a term of imprisonment under this paragraph may, if there was
a prior conviction, impose a term of supervised release of not more than 1 year, in
addition to such term of imprisonment.
(4) Notwithstanding paragraph (1)(D) of this subsection, any person who
violates subsection (a) of this section by distributing a small amount of marihuana
for no remuneration shall be treated as provided in section 404 [21 USCS § 844]
and section 3607 of title 18, United States Code.
(5) Any person who violates subsection (a) of this section by cultivating
or manufacturing a controlled substance on Federal property shall be imprisoned
as provided in this subsection and shall be fined any amount not to exceed—
(A) the amount authorized in accordance with this section;
(B) the amount authorized in accordance with the provisions of title
18, United States Code;
(C) $ 500,000 if the defendant is an individual; or
(D) $ 1,000,000 if the defendant is other than an individual; or both.
(6) Any person who violates subsection (a), or attempts to do so, and
knowingly or intentionally uses a poison, chemical, or other hazardous substance
on Federal land, and, by such use(A) creates a serious hazard to humans, wildlife, or domestic animals,
(B) degrades or harms the environment or natural resources, or
(C) pollutes an aquifer, spring, stream, river, or body of water,
shall be fined in accordance with title 18, United States Code, or
imprisoned not more than five years, or both.
(7) Penalties for distribution.
(A) In general. Whoever, with intent to commit a crime of violence, as
defined in section 16 of title 18, United States Code (including rape), against an
individual, violates subsection (a) by distributing a controlled substance or
controlled substance analogue to that individual without that individual's
knowledge, shall be imprisoned not more than 20 years and fined in accordance
with title 18, United States Code.
8

(B) Definition. For purposes of this paragraph, the term "without that
individual's knowledge" means that the individual is unaware that a substance
with the ability to alter that individual's ability to appraise conduct or to decline
participation in or communicate unwillingness to participate in conduct is
administered to the individual.
(c) Offenses involving listed chemicals. Any person who knowingly or
intentionally(1) possesses a listed chemical with intent to manufacture a controlled
substance except as authorized by this title;
(2) possesses or distributes a listed chemical knowing, or having
reasonable cause to believe, that the listed chemical will be used to manufacture a
controlled substance except as authorized by this title; or
(3) with the intent of causing the evasion of the recordkeeping or
reporting requirements of section 310 [21 USCS § 830], or the regulations issued
under that section, receives or distributes a reportable amount of any listed
chemical in units small enough so that the making of records or filing of reports
under that section is not required;
shall be fined in accordance with title 18, United States Code, or
imprisoned not more than 20 years in the case of a violation of paragraph (1) or
(2) involving a list 1 chemical or not more than 10 years in the case of a violation
of this subsection other than a violation of paragraph (1) or (2) involving a list I
chemical, or both.
(d) Boobytraps on Federal property; penalties; "boobytrap" defined.
(1) Any person who assembles, maintains, places, or causes to be placed
a boobytrap on Federal property where a controlled substance is being
manufactured, distributed, or dispensed shall be sentenced to a term of
imprisonment for not more than 10 years or fined under title 18, United States
Code, or both.
(2) If any person commits such a violation after 1 or more prior
convictions for an offense punishable under this subsection, such person shall be
sentenced to a term of imprisonment of not more than 20 years or fined under title
18, United States Code, or both.
(3) For the purposes of this subsection, the term "boobytrap" means any
concealed or camouflaged device designed to cause bodily injury when triggered
by any action of any unsuspecting person making contact with the device. Such
term includes guns, ammunition, or explosive devices attached to trip wires or
other triggering mechanisms, sharpened stakes, and lines or wires with hooks
attached.
(e) Ten-year injunction as additional penalty. In addition to any other
applicable penalty, any person convicted of a felony violation of this section
relating to the receipt, distribution, manufacture, exportation, or importation of a
9

listed chemical may be enjoined from engaging in any transaction involving a
listed chemical for not more than ten years.
(f) Wrongful distribution or possession of listed chemicals.
(1) Whoever knowingly distributes a listed chemical in violation of this
title (other than in violation of a recordkeeping or reporting requirement of section
310 [21 USCS § 830]) shall, except to the extent that paragraph (12), (13), or (14)
of section 402(a) [21 USCS § 842(a)] applies, be fined under title 18, United
States Code, or imprisoned not more than 5 years, or both.
(2) Whoever possesses any listed chemical, with knowledge that the
recordkeeping or reporting requirements of section 310 [21 USCS § 830] have not
been adhered to, if after such knowledge is acquired, such person does not take
immediate steps to remedy the violation shall be fined under title 18, United
States Code, or imprisoned not more than one year, or both.
(g) Internet sales of date rape drugs.
(1) Whoever knowingly uses the Internet to distribute a date rape drug to
any person, knowing or with reasonable cause to believe that—
(A) the drug would be used in the commission of criminal sexual
conduct; or
(B) the person is not an authorized purchaser;
shall be fined under this title or imprisoned not more than 20 years, or
both.
(2) As used in this subsection:
(A) The term "date rape drug" means—
(i) gamma hydroxybutyric acid (GHB) or any controlled substance
analogue of GHB, including gamma butyrolactone (GBL) or 1,4-butanediol;
(ii) ketamine;
(iii) flunitrazepam; or
(iv) any substance which the Attorney General designates, pursuant
to the rulemaking procedures prescribed by section 553 of title 5, United States
Code [5 USCS § 553], to be used in committing rape or sexual assault.
The Attorney General is authorized to remove any substance from the
list of date rape drugs pursuant to the same rulemaking authority.
(B) The term "authorized purchaser" means any of the following
persons, provided such person has acquired the controlled substance in
accordance with this Act:
(i) A person with a valid prescription that is issued for a legitimate
medical purpose in the usual course of professional practice that is based upon a
qualifying medical relationship by a practitioner registered by the Attorney
General. A "qualifying medical relationship" means a medical relationship that
exists when the practitioner has conducted at least 1 medical evaluation with the
authorized purchaser in the physical presence of the practitioner, without regard to
whether portions of the evaluation are conducted by other heath [health]
professionals. The preceding sentence shall not be construed to imply that 1
10

medical evaluation demonstrates that a prescription has been issued for a
legitimate medical purpose within the usual course of professional practice.
(ii) Any practitioner or other registrant who is otherwise authorized
by their registration to dispense, procure, purchase, manufacture, transfer,
distribute, import, or export the substance under this Act.
(iii) A person or entity providing documentation that establishes the
name, address, and business of the person or entity and which provides a
legitimate purpose for using any "date rape drug" for which a prescription is not
required.
(3) The Attorney General is authorized to promulgate regulations for
record-keeping and reporting by persons handling 1,4-butanediol in order to
implement and enforce the provisions of this section. Any record or report
required by such regulations shall be considered a record or report required under
this Act.
(h) Offenses involving dispensing of controlled substances by means of
the Internet.
(1) In general. It shall be unlawful for any person to knowingly or
intentionally—
(A) deliver, distribute, or dispense a controlled substance by means of
the Internet, except as authorized by this title; or
(B) aid or abet (as such terms are used in section 2 of title 18, United
States Code) any activity described in subparagraph (A) that is not authorized by
this title.
(2) Examples. Examples of activities that violate paragraph (1) include,
but are not limited to, knowingly or intentionally—
(A) delivering, distributing, or dispensing a controlled substance by
means of the Internet by an online pharmacy that is not validly registered with a
modification authorizing such activity as required by section 303(f) [21 USCS §
823(f)] (unless exempt from such registration);
(B) writing a prescription for a controlled substance for the purpose of
delivery, distribution, or dispensation by means of the Internet in violation of
section 309(e) [21 USCS § 829(e)];
(C) serving as an agent, intermediary, or other entity that causes the
Internet to be used to bring together a buyer and seller to engage in the dispensing
of a controlled substance in a manner not authorized by sections [section] 303(f)
or 309(e) [21 USCS § 823(f) or 829(e)];
(D) offering to fill a prescription for a controlled substance based
solely on a consumer's completion of an online medical questionnaire; and
(E) making a material false, fictitious, or fraudulent statement or
representation in a notification or declaration under subsection (d) or (e),
respectively, ofsection 311 [21 USCS § 831].
(3) Inapplicability.
(A) This subsection does not apply to—
(i) the delivery, distribution, or dispensation of controlled substances
by nonpractitioners to the extent authorized by their registration under this title;
11

(ii) the placement on the Internet of material that merely advocates
the use of a controlled substance or includes pricing information without
attempting to propose or facilitate an actual transaction involving a controlled
substance; or
(iii) except as provided in subparagraph (B), any activity that is
limited to~
(I) the provision of a telecommunications service, or of an Internet
access service or Internet information location tool (as those terms are defined in
section 231 of the Communications Act of 1934 [47 USCS § 231]); or
(II) the transmission, storage, retrieval, hosting, formatting, or
translation (or any combination thereof) of a communication, without selection or
alteration of the content of the communication, except that deletion of a particular
communication or material made by another person in a manner consistent with
section 230(c) of the Communications Act of 1934 [47 USCS § 230(c)] shall not
constitute such selection or alteration of the content of the communication.
(B) The exceptions under subclauses (I) and (II) of subparagraph
(A)(iii) shall not apply to a person acting in concert with a person who violates
paragraph (1).
(4) Knowing or intentional violation. Any person who knowingly or
intentionally violates this subsection shall be sentenced in accordance with
subsection (b).
(21 U.S.C. § 841 (As amended Aug. 3, 2010, P.L. 111-220, §§ 2(a), 4(a), 124 Stat. 2372.))
18 U.S.C. § 924(c) provides:
(c)(1)(A) Except to the extent that a greater minimum sentence is
otherwise provided by this subsection or by any other provision of law, any
person who, during and in relation to any crime of violence or drug trafficking
crime (including a crime of violence or drug trafficking crime that provides for an
enhanced punishment if committed by the use of a deadly or dangerous weapon or
device) for which the person may be prosecuted in a court of the United States,
uses or carries a firearm, or who, in furtherance of any such crime, possesses a
firearm, shall, in addition to the punishment provided for such crime of violence
or drug trafficking crime—
(i) be sentenced to a term of imprisonment of not less than 5 years;
(ii) if the firearm is brandished, be sentenced to a term of imprisonment of
not less than 7 years; and
(iii) if the firearm is discharged, be sentenced to a term of imprisonment of
not less than 10 years.
(B) If the firearm possessed by a person convicted of a violation of this
subsection(i) is a short-barreled rifle, short-barreled shotgun, or semiautomatic
assault weapon, the person shall be sentenced to a term of imprisonment of not
less than 10 years; or
12

(ii) is a machinegun or a destructive device, or is equipped with a firearm
silencer or firearm muffler, the person shall be sentenced to a term of
imprisonment of not less than 30 years.
(C) In the case of a second or subsequent conviction under this subsection,
the person shall-(i) be sentenced to a term of imprisonment of not less than 25 years; and
(ii) if the firearm involved is a machinegun or a destructive device, or is
equipped with a firearm silencer or firearm muffler, be sentenced to imprisonment
for life.
(D) Notwithstanding any other provision of law(1) a court shall not place on probation any person convicted of a violation
of this subsection; and
(ii) no term of imprisonment imposed on a person under this subsection
shall run concurrently with any other term of imprisonment imposed on the
person, including any term of imprisonment imposed for the crime of violence or
drug trafficking crime during which the firearm was used, carried, or possessed.
(2) For purposes of this subsection, the term "drug trafficking crime"
means any felony punishable under the Controlled Substances Act (21 U.S.C. 801
et seq.), the Controlled Substances Import and Export Act (21 U.S.C. 951 et seq.),
or the Maritime Drug Law Enforcement Act (46 U.S.C. App. 1901 et seq.).
(3) For purposes of this subsection the term "crime of violence" means an
offense that is a felony and(A) has as an element the use, attempted use, or threatened use of physical
force against the person or property of another, or
(B) that by its nature, involves a substantial risk that physical force against
the person or property of another may be used in the course of committing the
offense.
(4) For purposes of this subsection, the term "brandish" means, with
respect to a firearm, to display all or part of the firearm, or otherwise make the
presence of the firearm known to another person, in order to intimidate that
person, regardless of whether the firearm is directly visible to that person. Id.

13

STATEMENT OF THE CASE
On or about 11-29-18 Edwin Artis Pettaway was charged with violation of 21 U.S.C. §
841(a)(1) and 21 U.S.C. § 841(b)(1)(B) (Possession with Intent to Distribute 28 grams or more
of a mixture and substance containing a detectable amount of cocaine base on or about the 15th
day of November, 2017) (Count 1); 18 U.S.C. § 924(c)(1)(A) (did knowingly possess a firearm,
that is, a SCCY 9mm pistol, in furtherance of a drug trafficking crime on or about the 15th day of
November, 2017) (Count 2).
These convictions were predicated on evidence seized during the execution of a search
warrant on a residence in Birmingham, AL. The probable cause for the search was in turn
predicated on a ‘tip’ by a confidential informant (“Cl”). At the time of the execution of the
warrant, there were 13 people in the residence but, based on the secret information provided by
the Cl and misidentification of a person coming out of a room in which drugs and a gun were
found, the police chose to charge Mr. Pettaway.
He was arraigned on or about 12-17-18 at which time he pleaded not guilty to the charged
violations.
On 2-18-19, counsel filed a motion to suppress. In this motion, counsel argued, inter alia,
that allegations relied in the affidavit filed in support of the motion to suppress were based on
false information. (USDC Docket 2:18-cr-586-l, Entry #21)
Simultaneously with filing the motion to suppress, counsel moved the Court to order the
prosecutor to release the name of the confidential informant because his/her testimony was
critically important and necessary for Mr. Pettaway challenge the search warrant and to prove his
innocence. (USDC Docket 2:18-cr-586-l, Entry #22)

14

On 3-7-19, the district court denied disclosure of the identification of the confidential
informant (USDC Docket 2:18-cr-586-l, Entry #34) (Appendix E)
On 3-20-19, a hearing was held on the motion to suppress. At the hearing the confidential
informant’s information, veracity and identification of Mr. Pettaway for the search warrant were
critical to the government’s case. While defense counsel desperately needed to obtain disclosure
of the confidential informant’s identification so he/she could be called and cross examined,
including that he/she be cross examined as to his/her allegation that Mr. Pettaway was known as
“Fat”1, the district court’s order prevented counsel from this defense of Mr. Pettaway. (USDC
Docket 2:18-cr-586-l, Entry #34) (Appendix E).
On 3-20-19, the District Court denied the motion to suppress. In denying the motion to
suppress, the District Court held, inter alia, that the confidential informant was reliable so
probable cause existed to support the search warrant. (USDC Docket 2:18-cr-586-l, Entry #35)
(Appendix D)
On or about 7-15-19 Mr. Pettaway proceeded to trial. (USDC Docket 2:18-cr-586-l,
Entry Dated 7-15-19)
At trial, the evidence seized pursuant to the search warrant was critical to the
government’s case. Moreover, the government witnesses misidentified Mr. Pettaway and testified
that this misidentified person, falsely alleged to be Mr. Pettaway, was seen coming out of a room
that contained drugs, a gun and documents related to Mr. Pettaway when the search warrant was
executed. In fact, evidence available but not presented at trial would have demonstrated that the
person actually seen coming from the room was one “Toby Clanton”. This could have been
demonstrated by the body cams of the police. Toby is large and fat and is and was known as

i

Mr. Pettaway was NEVER known as “Fat”. He was called “Big” or “Mir. Big” ONLY.
15

“Fat”. Moreover, had counsel or the police investigated, they would have found that the room the
drugs were found in was rented to one “Anthony Powell”. His mail was addressed to that room.
The house was a boarding house and had been a boarding house for a long time.
On 7-17-19, Mr. Pettaway was wrongfiilly found guilty by the jury as to violation of 21
U.S.C. § 841(a)(1) and 21 U.S.C. § 841(b)(1)(B) (Possession with Intent to Distribute 28 grams
or more of a mixture and substance containing a detectable amount of cocaine base on or about
the 15th day of November, 2017) (Count 1); 18 U.S.C. § 924(c)(1)(A) (did knowingly possess a
firearm, that is, a SCCY 9mm pistol, in furtherance of a drug trafficking crime on or about the
15th day of November, 2017) (Count 2).
When the Presentence Report was prepared, the Probation Officer recommended finding
a Total Offense Level 32 and a Criminal History of “I” which resulted in a guideline sentencing
range 121-151 months incarceration for Count 1 with a statutory mandatory minimum of 5 years
for that count and an additional 5 years mandatory minimum for Count 2 which is required to be
served consecutively. (Presentence Report, ff28,35,69-70)
On 1-9-20, Mr. Pettaway appeared for sentencing. At sentencing, it was determined that,
pursuant to amendment, he was entitled to an additional 2 points reduction in his Total Offense
Level resulting in a Total Offense Level of 30, Criminal History of “I” and a guideline
sentencing range of 97-121 for Count 1 with 60 months consecutive for Count 2. (Transcript of
sentencing 1-9-20, page 7)
On 1-9-20, Mr. Pettaway was sentenced to 174 (114+60) months incarceration for
violations of 21 U.S.C. § 841(a)(1) and 21 U.S.C. § 841(b)(1)(B) (Possession with Intent to
Distribute 28 grams or more of a mixture and substance containing a detectable amount of
cocaine base on or about the 15th day of November, 2017) (Count 1); 18 U.S.C. § 924(c)(1)(A)
16

(did knowingly possess a firearm, that is, a SCCY 9mm pistol, in furtherance of a drug
trafficking crime on or about the 15th day of November, 2017) (Count 2). This sentence
represented the adjusted Total Offense Level of 30, Criminal History of “1” and a guideline
sentencing range of 97-121 for Count 1 with 60 months consecutive for Count 2. (Appendix B)
(See Transcript of sentencing 1-9-20, pages 7,21)
The judgment was entered on 1-15-20.
On 1-14-20, a Notice of Appeal was filed. On direct appeal, counsel argued, inter alia,
that the denial of the disclosure of the confidential informant and his/her subsequent
unavailability for either the hearing on the motion to suppress or at trial prejudiced Mr. Pettaway.
(USCA Brief of Appellant, PDF page 33).
On 1-14-21, the Court of Appeals denied Mr. Pettaway’s appeal. In denying the appeal,
the Court of Appeals merely held that the search warrant was supported by probable cause and
that the evidence was sufficient. United States v. Pettaway, 842 Fed. Appx. 406 * | 2021 U.S.
App. LEXIS 1005 ** (11th Cir. 1-14-21) (Appendix A)
Counsel timely filed a petition for rehearing. On 3-24-21, the Court of Appeals denied
rehearing. United States v. Pettaway, 2021 U.S. App. LEXIS 8623 (11th Cir. 3-24-21). (Appendix
C)

Mr. Pettaway demonstrates within that this Court should grant his Petition For Writ Of
Certiorari because the court of appeals for the Eleventh Circuit has so far departed from the
accepted and usual course ofjudicial proceedings as to call for an exercise of this Court’s power
of supervision.

17

REASONS FOR GRANTING THE WRIT
1.)

THIS COURT SHOULD GRANT MR. PETTAWAY’S PETITION
FOR WRIT OF CERTIORARI BECAUSE THE COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT HAS SO FAR
DEPARTED FROM THE ACCEPTED AND USUAL COURSE OF
JUDICIAL PROCEEDINGS AS TO CALL FOR AN EXERCISE OF
THIS COURT’S POWER OF SUPERVISION

Supreme Court Rule 10 provides in relevant part as follows:
Rule 10.
CONSIDERATIONS GOVERNING REVIEW
ON WRIT OF CERTIORARI
A review on writ of certiorari is not a matter of right, but of judicial
discretion. A petition for a writ of certiorari will be granted only when there are
special and important reasons therefor. The following, while neither controlling
nor fully measuring the Court’s discretion, indicate the character of reasons that
will be considered:
a United States court of appeals has rendered a decision in conflict
(a)
with the decision of another United States court of appeals on the same
matter; or has decided a federal question in a way in conflict with a state
court of last resort; or has so far departed from the accepted and usual
course of judicial proceedings, or sanctioned such a departure by a lower
court, as to call for an exercise of this Court’s power of supervision ...Id.
Supreme Court Rule 10(a).
This Court has never hesitated to exercise it’s power of supervision where the lower
courts have substantially departed from the accepted and usual course of judicial proceedings
with resulting injustice to one of the parties. McNabb v. United States, 318 U.S. 332 (1943).2 As
the Court stated in McNabb:
... the scope of our reviewing power over convictions brought here from the
federal courts is not confined to ascertainment of Constitutional validity. Judicial
supervision of the administration of criminal justice in the federal courts implies
the duty of establishing and maintaining civilized standards of procedure and
evidence.
2 See also GACA v. United States, 411 U.S. 618 (1973); United States v. Jacobs, 429 U.S. 909
(1976); Rea v. United States, 350 U.S. 214 (1956); Benanti v. United States, 355 U.S. 96 (1957);
United States v. Behrens, 375 U.S. 162 (1963); Elkins v. United States, 364 U.S. 206 (I960)..
18

McNabb, 318 U.S. at 340.
1A.)

Mr. Pettaway Was Denied His Right To Present Evidence Of Mistake
And Bias By The Cooperating Witness And, Therefore, Denied His
Constitutional Right To Present A Complete Defense

Whether rooted in the Due Process Clause of the Fifth Amendment or in the Compulsory
Process Clause of the Sixth Amendment, the Constitution guarantees criminal defendants the
right to present a defense. Crane v. Kentucky, 476 U.S. 683, 690, 106 S. Ct. 2142, 90 L. Ed. 2d
636 (1986); United States v. Blum, 62 F.3d 63; 1995 U.S. App. LEXIS 20605 **11-12 (2nd Cir.
1995) (citing United States v. Almonte, 956 F.2d 27, 30 (2nd Cir. 1992) and Chambers v.
Mississippi, 410 U.S. 284, 302, 35 L. Ed. 2d 297, 93 S. Ct. 1038 (1973)); United States v.
Molina, 407 F.3d 511; 2005 U.S. App. LEXIS 9041 **25 (1st Cir. 2005); United States v.
Hudson, 970 F.2d 948; 1992 U.S. App. LEXIS 16608 (1st Cir. 1992).
“[A] defendant must generally be permitted to introduce”: evidence directly pertaining to
any element of the charged offense or an affirmative defense; “evidence pertaining to collateral
matters that, through a reasonable chain of inferences, could make the existence of one or more
of the elements of the charged offense or an affirmative defense more or less certain”; and/or
evidence that “tends to place the story presented by the prosecution in a significantly different
light.” United States v. Hum, 368 F.3d 1359, 1363, 95 Fed. Appx. 1359 (11th Cir. 2004).
Additionally, “a defendant generally has the right to introduce evidence that is not itself tied to
any of the elements of a crime or affirmative defense, but that could have a substantial impact on
the credibility of an important government witness.” Id. Typically, a defendant may present
evidence of third-party guilt. See Holmes v. South Carolina, 547 U.S. 319, 330-31, 126 S. CL
1727, 1734-35, 164 L. Ed. 2d 503 (2006) (holding that a. state law preventing evidence of thirdparty guilt was “arbitrary” and thus “violate[d] a criminal defendant’s right to have a meaningful
19

opportunity to present a complete defense” (quotation marks omitted)). The right can include the
right to a “theory of defense” or a “position” jury instruction if the defendant makes a timely
request for such an instruction, if the request is supported by evidence and if it sets out a correct
declaration of law. United States v. Manning, 618 F.2d 45; 1980 U;S. App. LEXIS 18474 (8th Cir.
1980).3
In Mr. Pettaway’s case, as set forth above, on or about 11-29-18 he was charged with
violation of 21 U.S.C. § 841(a)(1) and 21 U.S.C. § 841(b)(1)(B) (Possession with Intent to
Distribute 28 grams or more of a mixture and substance containing a detectable amount of
cocaine base on or about the 15th day of November, 2017) (Count 1); 18 U.S.C. § 924(c)(1)(A)
(did knowingly possess a firearm, that is, a SCCY 9mm pistol, in furtherance of a drug
trafficking crime on or about the 15th day of November, 2017) (Count 2).
These convictions were predicated on evidence seized during the execution of a search
warrant on a residence in Birmingham, AL. The probable cause for the search was in turn
predicated on a ‘tip’ by a confidential informant (“Cl”). At the time of the execution of the
warrant, there were 13 people in the residence but, based on the secret information provided by
the Cl and misidentification of a person coming out of a room in which drugs and a gun were
found, the police chose to charge Mr. Pettaway.
He was arraigned on or about 12-17-18 at which time he pleaded not guilty to the charged
violations.
3 See also United States v. Sherman, 551 F.3d 45; 2008 U.S. App. LEXIS 25806 (1st Cir. 2008)
(“mere presence” instruction given); United States v. Nelson, 277 F.3d 164; 2002 U.S. App.
LEXIS 213 (2nd Cir. 2002) (same); United States v. Reyes-Rios, 280 Fed. Appx. 376; 2008 U.S.
App. LEXIS 11923 (5th Cir. 2008) (same); United States v. Berry, 290 Fed. Appx. 784; 2008 U.S.
App. LEXIS 17280 (6th Cir. 2008); United States v. Marshall, 259 Fed. Appx. 855; 2008 U.S.
App. LEXIS 153 (7th Cir. 2008) (same); United States v. Jimenez, 205 Fed. Appx. 656; 2006 U.S.
20

On 2-18-19, counsel filed a motion to suppress. In this motion, counsel argued, inter alia,
that allegations relied in the affidavit filed in support of the motion to suppress were based on
false information. (USDC Docket 2:18-cr-586-l, Entry #21)
Simultaneously with filing the motion to suppress, counsel moved the Court to order the
prosecutor to release the name of the confidential informant because his/her testimony was
critically important and necessary for Mr. Pettaway challenge the search warrant and to prove his
innocence. (USDC Docket 2:18-cr-586-l, Entry #22)
On 3-7-19, the district court denied disclosure of the identification of the confidential
informant. (USDC Docket 2:18-cr-586-l, Entry #34) (Appendix E)
On 3-20-19, a hearing was held on the motion to suppress. At the hearing the confidential
informant’s information, veracity and identification of Mr. Pettaway for the search warrant were
critical to the government’s case. While defense counsel desperately needed to obtain disclosure
of the confidential informant’s identification so he/she could be called and cross examined,
including that he/she be cross examined as to his/her allegation that Mr. Pettaway was known as
“Fat”4, the district court’s order prevented counsel from this defense of Mr. Pettaway. (USDC
Docket 2:18-cr-586-l, Entry #34) (Appendix E).
On 3-20-19, the District Court denied the motion to suppress. In denying the motion to
suppress, the District Court held, inter alia, that the confidential informant was reliable so
probable cause existed to support the search warrant. (USDC Docket 2:18-cr-586-l, Entry #35)
(Appendix D)

App. LEXIS 27952 (10th Cir. 2006) (same); United States v. Woodard, 531 F.3d 1352; 2008 U.S.
App. LEXIS 13719 (11th Cir. 2008) (same).
4 Mr. Pettaway was NEVER known as “Fat”. He was called “Big” or “Mr. Big” ONLY.
21

On or about 7-15-19 Mr. Pettaway proceeded to trial. (USDC Docket 2:18-cr-586-l,
Entry Dated 7-15-19)
At trial, the evidence seized pursuant to the search warrant was critical to the
government’s case. Moreover, the government witnesses misidentified Mr. Pettaway and testified
that this misidentified person, falsely alleged to be Mr. Pettaway, was seen coming out of a room
that contained drugs, a gun and documents related to Mr. Pettaway when the search warrant was
executed. In fact, evidence available but not presented at trial would have demonstrated that the
person actually seen coming from the room was one “Toby Clanton”. This could have been
demonstrated by the body cams of the police. Toby is large and fat and is and was known as
“Fat”. Moreover, had counsel or the police investigated, they would have found that the room the
drugs were found in was rented to one “Anthony Powell”. His mail was addressed to that room.
The house was a boarding house and had been a boarding house for a long time.
On 7-17-19, Mr. Pettaway was wrongfully found guilty by the jury as to violation of 21
U.S.C. § 841(a)(1) and 21 U.S.C. § 841(b)(1)(B) (Possession with Intent to Distribute 28 grams
or more of a mixture and substance containing a detectable amount of cocaine base on or about
the 15th day ofNovember, 2017) (Count 1); 18 U.S.C. § 924(c)(1)(A) (did knowingly possess a
firearm, that is, a SCCY 9mm pistol, in furtherance of a drug trafficking crime on or about the
15th day ofNovember, 2017) (Count 2).
On 1-9-20, Mr. Pettaway was sentenced to 174 (114+60) months incarceration for
violations of 21 U.S.C. § 841(a)(1) and 21 U.S.C. § 841(b)(1)(B) (Possession with Intent to
Distribute 28 grams or more of a mixture and substance containing a detectable amount of
cocaine base on or about the 15th day ofNovember, 2017) (Count 1); 18 U.S.C. § 924(c)(1)(A)
(did knowingly possess a firearm, that is, a SCCY 9mm pistol, in furtherance of a drug
22

trafficking crime on or about the 15th day of November, 2017) (Count 2). This sentence
represented the adjusted Total Offense Level of 30, Criminal History of “1” and a guideline
sentencing range of 97-121 for Count 1 with 60 months consecutive for Count 2. (Appendix B)
(See Transcript of sentencing 1-9-20, pages 7, 21)
On 1-14-20, a Notice of Appeal was filed. On direct appeal, counsel argued, inter alia,
that the denial of the disclosure of the confidential informant and his/her subsequent
unavailability for either the hearing on the motion to suppress or at trial prejudiced Mr. Pettaway.
(USCA Brief of Appellant, PDF page 33).
On 1-14-21, the Court of Appeals denied Mr. Pettaway’s appeal. In denying the appeal,
the Court of Appeals merely held that the search warrant was supported by probable cause and
that the evidence was sufficient. United States v. Pettaway, 842 Fed. Appx. 406 *

2021 U.S.

App. LEXIS 1005 ** (11th Cir. 1-14-21) (Appendix A)
Counsel timely filed a petition for rehearing. On 3-24-21, the Court of Appeals denied
rehearing. United States v. Pettaway, 2021 U.S. App. LEXIS 8623 (11th Cir. 3-24-21). (Appendix
C)
Based on the foregoing, the district court’s denial of disclosure of the identity of the
confidential informant denied Mr. Pettaway his right to present evidence of mistake and bias by
the cooperating witness and, therefore, denied his constitutional right to present a complete
defense.
IB.)

Multiple Errors In The Courts Below Mandate That Mr. Pettaway’s
Conviction And/Or Sentence Be Vacated.

Mr. Pettaway’s conviction and sentence are violative of the First, Second, Fourth, Fifth,
Sixth, And Eighth Amendments to the constitution. More specifically, Mr. Pettaway’s conviction
and sentence are violative of his right to freedom of speech and to petition and his right to keep
23

and bear arms and his right to be free of unreasonable search and seizure, his right to due process
of law, his rights to counsel, to jury trial, to confrontation of witnesses, to present a defense, and
to compulsory process, and his right to be free of cruel and unusual punishment under the
constitution.
The evidence was insufficient. The government falsified and withheld material evidence.
The District Court unlawfully determined Mr. Pettaway’s sentence and foiled to apply current
and pending guideline amendments to his case.
These claims in Argument IB are submitted to preserve Mr. Pettaway’s right to raise
them in a motion pursuant to 28 U.S.C. § 2255 if this Court declines to reach their merits.
Based on the foregoing, the decision by the Court of Appeals for the Eleventh Circuit has
so for departed from the accepted and usual course of judicial proceedings, or sanctioned such a
departure by a lower court, as to call for an exercise of this Court’s power of supervision. Id.
McNabb v. United States, 318 U.S. 332 (1943); GACA v. United States, 411 U.S. 618 (1973);
United States v. Jacobs, 429 U.S. 909 (1976); Rea v. United States, 350 U.S. 214 (1956); Benanti
v. United States, 355 U.S. 96 (1957); United States v. Behrens, 375 U.S. 162 (1963); Elkins v.
United States, 364 U.S. 206 (1960).
Based on all of the foregoing, this Court should grant certiorari and review the judgment
of the Court of Appeals for the Eleventh Circuit in Mr. Pettaway’s case.

24

CONCLUSION
For all of the foregoing reasons, Petitioner Edwin Artis Pettaway respectfully prays that
his Petition for Writ of Certiorari be GRANTED and the case set for argument on the merits.
Alternatively, Petitioner respectfully prays that this Court GRANT certiorari, VACATE
the order affirming his direct appeal and REMAND5 to the court of appeals for reconsideration
in light of Crane v. Kentucky, 476 U.S. 683, 690,106 S. Ct. 2142, 90 L. Ed. 2d 636 (1986).
Edwin Artis Pettaway
Petitioner
36222-001
P.O. Box 9000
Forrest City, AR 72336
Date:

5 For authority on “GVR” orders, see Lawrence v. Chafer, 516 U.S. 163, 167-68, 133 L. Ed. 2d
545, 116 S. Ct. 604(1996).
25

